   DEPARTMENT OF HEALTH AND HUMAN SERVICES                                       Office of Inspector General

                                                                                 Office of Audit Services
                                                                                 1100 Commerce, Room 632
                                                                                 Dallas, Texas 75242


                                                                              April 8, 2009
Report Number: A-06-08-00015

Mr. Dan Bloodworth
Senior Vice President and CFO
Pinnacle Business Solutions, Inc.
515 Pershing Boulevard
North Little Rock, Arkansas 72114

Dear Mr. Bloodworth:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Audit of Pinnacle Business Solutions, Inc.’s, Medicare Part
A Final Administrative Cost Proposals for Fiscal Years 2005 through 2007.” We will forward a
copy of this report to the HHS action official noted on the following page for review and any
action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, OIG reports generally are made
available to the public to the extent that information in the report is not subject to exemptions in
the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Paul Chesser, Audit Manager, at (501) 225-8114 or through e-mail at
Paul.Chesser@oig.hhs.gov. Please refer to report number A-06-08-00015 in all correspondence.

                                              Sincerely,



                                              Gordon L. Sato
                                              Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Dan Bloodworth


Direct Reply to HHS Action Official:

Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
rokcmora@cms.hhs.gov
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





AUDIT OF PINNACLE BUSINESS 

SOLUTIONS, INC.’S, MEDICARE 

PART A FINAL ADMINISTRATIVE 

 COST PROPOSALS FOR FISCAL 

 YEARS 2005 THROUGH 2007 





                    Daniel R. Levinson

                     Inspector General 


                        April 2009

                      A-06-08-00015

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices 


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND 


Title XVIII of the Social Security Act established the Medicare Program, which provides for a
hospital insurance program (Part A) and a supplementary medical insurance program (Part B).
The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program
through contractors, including Part A fiscal intermediaries that process and pay Medicare claims.
Contracts between CMS and the Medicare contractors define the functions to be performed and
provide for the reimbursement of allowable administrative costs incurred in the processing of
Medicare claims.

At the close of each fiscal year (FY), contractors submit to CMS a Final Administrative Cost
Proposal (cost proposal), which reports the costs incurred in performing Medicare functions
during the year. For FYs 2005 through 2007, CMS contracted with Pinnacle Business Solutions,
Inc. (Pinnacle), to serve as the Medicare Part A contractor for Arkansas and Rhode Island.
Pinnacle reported Medicare administrative costs totaling $32,713,096 in its cost proposals for
FYs 2005 through 2007.

OBJECTIVE

Our objective was to determine whether the administrative costs Pinnacle reported in its cost
proposals were reasonable, allowable, and allocable in accordance with part 31 of the Federal
Acquisition Regulations (FAR) and the Medicare contract.

SUMMARY OF FINDINGS

Pinnacle reported expenditures in its cost proposals that substantially complied with FAR and
Medicare contract provisions. However, Pinnacle reported $4,395 in unallowable costs: $1,235
in overstated fringe benefit costs and $3,160 in FY 2004 costs that it reported on the FY 2005
cost proposal. Pinnacle also reported $95,245 in professional and consulting services costs and
$3,196 in subcontractor services costs that may be unallowable. We are setting aside the
potentially unallowable costs for the CMS contracting officer to review for allowability.

Pinnacle had no forward-funding remaining for FYs 2005 through 2007; i.e., Pinnacle had
performed all of the services for which it had received funding.

RECOMENDATION

We recommend that Pinnacle:

   •	 decrease its FY 2005 cost proposal by $3,644 and its FY 2006 cost proposal by $751 to
      reflect the unallowable costs and

   •	 work with the CMS contracting officer to determine the allowability of $98,441 in costs
      related to professional and consulting services and subcontractor services costs.


                                                i
PINNACLE COMMMENTS

In written comments on our draft report, Pinnacle agreed that it had reported unallowable costs.
Pinnacle said that it had made or would make adjustments or offsets to decrease its FY 2005 cost
proposal by $3,644 and its FY 2006 cost proposal by $751. Pinnacle said that it would work
with CMS to determine the allowability of costs relating to professional and consulting services
and subcontractor services.

Pinnacle’s response to our draft report is included as Appendix D. We excluded the attachments
to Pinnacle’s comments because they contained personally identifiable information.

OFFICE OF INSPECTOR GENERAL RESPONSE

In addition to it comments, Pinnacle provided additional documentation supporting a portion of
the unallowable costs and a portion of the potentially unallowable costs. We adjusted our draft
report findings and recommendations based on the additional documentation.




                                             ii
                                                    TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION                 ................................................................................................................1


        BACKGROUND ...........................................................................................................1 


        OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................1 

             Objective ............................................................................................................1              

             Scope ................................................................................................................1              

             Methodology ......................................................................................................1                  


FINDINGS AND RECOMMENDATIONS ..........................................................................2 


        UNALLOWABLE COSTS ...........................................................................................3                            

            Fiscal Year 2004 Costs ......................................................................................3                        

            Fringe Benefit Costs ..........................................................................................3                      


        POTENTIALLY UNALLOWABLE COSTS ...............................................................3 

             Professional and Consulting Services................................................................3 

             Subcontractor Services.......................................................................................4                       


        RECOMMENDATIONS...............................................................................................4                           


        PINNACLE COMMENTS ............................................................................................4                           


        OFFICE OF INSPECTOR GENERAL RESPONSE ...................................................5 


APPENDIXES

        A – FINAL ADMINISTRATIVE COST PROPOSALS AND RECOMMENDED 

               DISALLOWANCE, SET-ASIDE, AND ACCEPTANCE AMOUNTS FOR 

               FISCAL YEARS 2005, 2006, and 2007 


        B – RECOMMENDED COST DISALLOWANCE AND SET-ASIDE AMOUNTS

        C – COMPARISON OF ADMINISTRATIVE COSTS CLAIMED TO BUDGET
              AUTHORIZATION

        D – PINNACLE COMMENTS




                                                                 iii
                                      INTRODUCTION 


BACKGROUND 


Title XVIII of the Social Security Act established the Medicare Program, which provides for a
hospital insurance program (Part A) and a supplementary medical insurance program (Part B).
The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program
through contractors, including Part A fiscal intermediaries that process and pay Medicare claims.
Contracts between CMS and the Medicare contractors define the functions to be performed and
provide for the reimbursement of allowable administrative costs incurred in the processing of
Medicare claims.

At the close of each fiscal year (FY), contractors submit to CMS a Final Administrative Cost
Proposal (cost proposal), which reports the costs incurred in performing Medicare functions
during the year. For FYs 2005 through 2007, CMS contracted with Pinnacle Business Solutions,
Inc. (Pinnacle), to serve as the Medicare Part A contractor for Arkansas and Rhode Island.
Pinnacle reported Medicare administrative costs totaling $32,713,096 in its cost proposals for
FYs 2005 through 2007.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the administrative costs Pinnacle reported in its cost
proposals were reasonable, allowable, and allocable in accordance with part 31 of the Federal
Acquisition Regulations (FAR) and the Medicare contract.

Scope

Our review covered the period October 1, 2004, through September 30, 2007 (FYs 2005 through
2007). For this period, Pinnacle reported Medicare administrative costs of $32,713,096.

We performed a limited review of the internal controls and procedures Pinnacle had in place to
allocate costs in accordance with the FAR and Medicare contract. We performed the review to
accomplish our objectives, not to provide assurance on the internal control structure.

We conducted fieldwork at the Pinnacle campus in North Little Rock, Arkansas, from November
2007 through May 2008.

Methodology

To accomplish our objectives, we:

   •    reviewed applicable Medicare laws, regulations, and guidelines;

   •    reviewed the applicable sections of the FAR and Pinnacle contract with CMS;


                                                1

   •	 reviewed the independent auditor’s reports for FYs 2005 and 2006;

   •	 reviewed Pinnacle internal audit reports for FYs 2005 through 2007;

   •	 reconciled line-item expenses on cost proposals and cost classification reports to the
      contractor’s subsidiary record of expenses;

   •	 reviewed journal entries, invoices, expense reports, contracts and agreements, and 

      additional supporting documentation; 


   •	 interviewed Pinnacle officials regarding the cost accumulation processes for cost 

      proposals and cost allocation systems; 


   •	 reviewed payroll and personnel records; and

   •	 tested costs for reasonableness, allowability, and allocability.

Regarding top Pinnacle executives who had salaries allocated to Medicare, we:

   •	 reviewed established personnel and accounting policies and procedures to determine
      Pinnacle’s practices for allocating compensation costs to Medicare,

   •	 compared a sample of executives’ compensation to benchmark compensation amounts
      published in the Federal Register, and

   •	 tested for excessive executive compensation costs.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Pinnacle reported expenditures in its cost proposals that substantially complied with FAR and
Medicare contract provisions. However, Pinnacle reported $4,395 in unallowable costs: $1,235
in overstated fringe benefit costs and $3,160 in FY 2004 costs that it reported on the FY 2005
cost proposal. Pinnacle also reported $95,245 in professional and consulting services costs and
$3,196 in subcontractor services costs that may be unallowable. We are setting aside the
potentially unallowable costs for the CMS contracting officer to review for allowability.

Pinnacle had no forward-funding remaining for FYs 2005 through 2007; i.e., Pinnacle had
performed all of the services for which it had received funding.




                                              2

UNALLOWABLE COSTS

Fiscal Year 2004 Costs

FAR 31.201-2(a)(3) states: “A cost is allowable when the cost complies with . . . generally
accepted accounting principles and practices appropriate to the circumstances.” Also, the
“Medicare Financial Management Manual,” chapter 2, section 130, states that the final
administrative cost proposals (FACP) “. . . shall not include adjustments related to prior years’
costs on the current FACP.”

Pinnacle incorrectly reported $3,160 in FY 2004 costs in its FY 2005 cost proposal because the
FY 2004 cost proposal was closed for adjustments. The costs include tuition reimbursement
credits, subcontractor costs, and outside professional services.

Fringe Benefit Costs

Pinnacle reported unallowable fringe benefit costs of $1,235 in its FYs 2005 and 2006 cost
proposals.

Lobbying Costs

FAR 31.205-22(c) states: “When a contractor seeks reimbursement for indirect costs, total
lobbying costs shall be separately identified in the indirect cost rate proposal, and thereafter
treated as other unallowable activity costs.”

Pinnacle reported $1,000 of unallowable costs in its FYs 2005 and 2006 cost proposals for
lobbying activities related to corporate membership in a trade organization.

State Unemployment Tax Refund

FAR 31.201-5 states: “The applicable portion of any income, rebate, allowance, or other credit
relating to any allowable cost and received by or accruing to the contractor shall be credited to
the Government either as a cost reduction or by cash refund.”

Pinnacle received a $235 State unemployment tax refund that was not included in the FY 2006
cost proposal. Because the refund was not deducted from costs, the FY 2006 cost proposal
contains unallowable costs of $235.

POTENTIALLY UNALLOWABLE COSTS

Professional and Consulting Services

The carrier contract, section II, part I, B, states: “The prior written approval of the
Contracting Officer shall be required: . . . (2) for the utilization of the services of any consultant
under this contract where such reimbursement exceeds or may exceed $400.00 per day or
$100,000 per year, exclusive of travel costs.” In addition, the carrier contract, section I, article



                                                 3

XIV, G, states: “If, with respect to any subcontract entered into under this Article requiring the
prior written approval of the Secretary, such required approval is not obtained, the United States
shall not be obligated to reimburse the Carrier for any costs incurred, relative to such
subcontract, prior to the date of the Secretary’s approval unless so stipulated.”

Pinnacle reported costs totaling $95,245 in its FY 2005 and FY 2006 cost proposals for
professional and consulting services for which it was unable to provide written approval.
Without prior written approval, CMS is not required to reimburse these costs.

Subcontractor Services

The carrier contract, section I, article XIV, A, states: “The Plan shall not enter into any
subcontract with a third party to perform any of the functions set forth in this agreement unless
such subcontract received the prior written approval of the Secretary.” In addition, the carrier
contract, section I, Article XIV, G, states: “If, with respect to any subcontract entered into under
this Article requiring the prior written approval of the Secretary, such required approval is not
obtained, the United States shall not be obligated to reimburse the Plan for any costs incurred,
relative to such subcontract, prior to the date of the Secretary's approval unless so stipulated.”

Pinnacle reported costs totaling $3,196 in its FY 2005 and FY 2006 cost proposals for
subcontractor services for which it was unable to provide written approval. Without prior
written approval, CMS is not required to reimburse these costs.

RECOMMENDATIONS

We recommend that Pinnacle:

   •	 decrease its FY 2005 cost proposal by $3,644 and its FY 2006 cost proposal by $751 to
      reflect the unallowable costs and

   •	 work with the CMS contracting officer to determine the allowability of $98,441 in costs
      related to professional and consulting services and subcontractor services costs.


PINNACLE COMMMENTS

In written comments on our draft report, Pinnacle agreed that it had reported unallowable costs.
Pinnacle said that it had made or would make adjustments or offsets to decrease its FY 2005 cost
proposal by $3,644 and its FY 2006 cost proposal by $751. Pinnacle said that it would work
with CMS to determine the allowability of costs relating to professional and consulting services
and subcontractor services.

Pinnacle’s response to our draft report is included as Appendix D. We excluded the attachments
to Pinnacle’s comments because they contained personally identifiable information.




                                               4

OFFICE OF INSPECTOR GENERAL RESPONSE

In addition to it comments, Pinnacle provided additional documentation supporting a portion of
the unallowable costs and a portion of the potentially unallowable costs. We adjusted our draft
report findings and recommendations based on the additional documentation.




                                              5

APPENDIXES

                                                                        APPENDIX A


      FINAL ADMINISTRATIVE COST PROPOSALS AND RECOMMENDED
   DISALLOWANCE, SET-ASIDE, AND ACCEPTANCE AMOUNTS FOR FISCAL
                      YEARS 2005, 2006, AND 2007

          Cost Category             FY 2005        FY 2006       FY 2007          Total

Salaries/wages                      $7,219,281     $7,105,409    $5,756,649    $20,081,339
Fringe benefits                      2,028,907      2,054,480     1,601,024      5,684,411
Facilities or occupancy                519,626        468,192       549,436      1,537,254
Data processing equipment              179,043        198,006       200,644        577,693
Subcontracts                           738,477        687,948       474,676      1,901,101
Outside professional. services         231,242        128,890      (578,251)      (218,119)
Telephone and telegraph                126,145        156,295       184,120        466,560
Postage and express                    427,694        398,582       223,168      1,049,444
Furniture and equipment                621,115        681,821       393,281      1,696,217
Materials and supplies                 120,628         86,033        74,004        280,665
Travel                                  91,961         82,787        69,452        244,200
Return on investment                    83,016         37,684             0        120,700
Miscellaneous                           67,584         64,381       740,212        872,177
Other                                  (10,277)          (456)            0        (10,733)
  Subtotal                          12,444,442     12,150,052     9,688,415     34,282,909
Other adjustments (credits)           (634,030)      (544,860)     (390,923)    (1,569,813)
  Total                            $11,810,412    $11,605,192    $9,297,492    $32,713,096
Forward funding                              0              0             0              0
  Total claimed on cost proposal   $11,810,412    $11,605,192    $9,297,492    $32,713,096
Recommended disallowance*                3,644           751               0         4,395
Recommended set aside                   79,370         19,071              0        98,441

Recommended for acceptance         $11,727,398    $11,585,370    $9,297,492    $32,610,260


* See Appendix B
                                                                           APPENDIX B


       RECOMMENDED COST DISALLOWANCE AND SET-ASIDE AMOUNTS

                                       Fiscal Year 2005
Disallowance Category                           Disallowance   Set-Aside

Fiscal year 2004 costs                            $3,160
Lobbying costs                                       484
Professional and consulting services                           $77,264
Subcontract services                                              2,106
 Total                                            $3,644       $79,370



                                       Fiscal Year 2006
Disallowance Category                           Disallowance   Set-Aside

Lobbying costs                                     $516
State unemployment tax refund                       235
Professional and consulting services                           $17,981
Subcontract services                                              1,090
 Total                                             $751        $19,071
                                                                                      APPENDIX C
                                                                                        Page 1 of 3

                    COMPARISON OF ADMINISTRATIVE COSTS CLAIMED
                            TO BUDGET AUTHORIZATION 


                                              Fiscal Year 2005 

                                                                                  Variance—
                                                 Budget     Administrative         Favorable
                  Operation                   Authorization Costs Claimed        (Unfavorable)
    Program Management (PM)
    Bills/claims payment                        $3,751,115         $3,850,666      ($99,551)
    Appeals/reviews                                784,809            758,835        25,974
    Beneficiary inquiries                          413,907            383,827        30,080
    PM provider communications                      32,192             31,763           429
    Reimbursement                                  911,486            865,128        46,358
    Provider enrollment                            207,942            154,231        53,711
    Provider telephone inquiries                   384,549            383,709           840
    Credits                                       (592,527)          (626,532)       34,005
       Subtotal                                  5,893,473          5,801,627        91,846
    Medicare Integrity Program
    (MIP)
    Medical review                                1,213,757          1,165,888       47,869
    MSP1 prepayment                                 190,714            184,000        6,714
    Benefits integrity                               17,565             16,866          699
    Local provider education and
    training                                       140,266             166,427      (26,161)
    Provider communications                        384,699             381,897        2,802
    Audit                                        2,458,010           2,536,047      (78,037)
    MSP postpayment                              1,397,097           1,350,983       46,114
       Subtotal                                  5,802,108           5,802,108            0
    MMA2 regulatory reform                         224,417             206,677       17,740
        Total                                  $11,919,998         $11,810,412     $109,586


Note: All amounts taken from Final Administrative Cost Proposal (Supplement No. 9) and
Notice of Budget Approval (Supplement No. 10).




1
    MSP – Medicare secondary payer
2
    MMA – Medicare Prescription Drug, Improvement, and Modernization Act
                                                                             APPENDIX C
                                                                               Page 2 of 3
              COMPARISON OF ADMINISTRATIVE COSTS CLAIMED
                      TO BUDGET AUTHORIZATION

                                     Fiscal Year 2006
                                                                       Variance—
                                         Budget         Administrative  Favorable
             Operation                Authorization     Costs Claimed (Unfavorable)
Program Management
Bills/claims payment                     $3,997,000       $3,932,780        $64,220
Appeals/reviews                             396,000          394,408          1,592
Beneficiary inquiries                       259,500          277,537        (18,037)
PM provider communications                   96,700          114,760        (18,060)
Reimbursement                               901,000          917,938        (16,938)
Productivity investment                       9,600                0          9,600
Provider enrollment                         170,200          209,964        (39,764)
Provider telephone inquiries                641,900          543,948         97,952
Credits                                    (533,100)        (530,991)        (2,109)
   Subtotal                               5,938,800        5,860,344         78,456
Medicare Integrity Program
Medical review                            1,039,500        1,223,195       (183,695)
MSP prepayment                              140,200          187,568        (47,368)
Benefits integrity                           28,600           30,813         (2,213)
Local provider education and
training                                    210,000          264,649        (54,649)
Provider communications                     271,700          297,456        (25,756)
Audit                                     2,566,800        2,345,180        221,620
MIP productivity investment                  79,600           40,516         39,084
MSP postpayment                           1,330,000        1,251,083         78,917
   Subtotal                               5,666,400        5,640,460         25,940
Nonactivity Summary
Nonrenewal                                       0           104,388       (104,388)
    Total                              $11,605,200       $11,605,192             $8


Note: All amounts taken from Final Administrative Cost Proposal (Supplement No. 03) and
Notice of Budget Approval (Supplement No. 16).
                                                                             APPENDIX C
                                                                               Page 3 of 3
              COMPARISON OF ADMINISTRATIVE COSTS CLAIMED
                      TO BUDGET AUTHORIZATION

                                      Fiscal Year 2007
                                                                    Variance—
                                          Budget     Administrative  Favorable
              Operation                Authorization Costs Claimed (Unfavorable)
Program Management
Bills/claims payment                    $3,372,200       $3,299,373       $72,827
Appeals/reviews                            587,900          562,046        25,854
Beneficiary inquiries                       60,400           36,533        23,867
Reimbursement                              795,900          729,705        66,195
Productivity investment                     16,900                0        16,900
Provider enrollment                        254,000          253,252           748
Provider telephone inquiries               561,500          489,536        71,964
Provider outreach and education             97,900           97,543           357
Credits                                   (617,200)        (373,825)     (243,375)
  Subtotal                               5,129,500        5,094,163        35,337

Medicare Integrity Program
Medical review                           1,263,000        1,171,837        91,163
MSP prepayment                             198,300          140,795        57,505
Benefits integrity                          25,000           17,489         7,511
Audit                                    2,518,000        2,410,196       107,804
MSP postpayment                            172,700          137,076        35,624
MIP provider outreach and education        364,300          325,936        38,364
  Subtotal                               4,541,300        4,203,329       337,971

   Total                                $9,670,800       $9,297,492      $373,308


Note: All amounts taken from Final Administrative Cost Proposal (Supplement No. 00) and
Notice of Budget Approval (Supplement No. 12).
APPENDIX D
  Page 1 of 2 

APPENDIX D
  Page 2 of 2

